IN THE
SUPREME COURT OF THE UNITED STATES

JACQUERE DORAN - PETITIONER
VS.
UNITED STATES OF AMERICA - RESPONDENT
PROOF OF SERVICE
I, Jacquere Doran, do swear or declare that on this date,
, 20 5 I , as required by Supreme Court Rule 29 I
have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery with 3 calendar days.
The names and addresses of those served are as follows::
Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave., N.W. Room 5614
Washington, D.C. 20530-0001
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

T,

,203[

04 c

Jacquere Doran, pro-se
Inmate #77521-097
Federal Correctional Institution
P.O. Box 800
Herlong, CA96113
28

